Legal Printers,

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

October 11, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

Re:

Todd C. Bank v. Peter R. Marksteiner, in His Official Capacity as
Clerk of the United States Court of Appeals for the Federal

Circuit
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Mandamus referenced above contains 1,117 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
As a member of the Supreme Court Bar, I declare under penalty of perjury that
the foregoing is true and correct.
incerely,

fhur DcCnotin, Esq.
Principal
i !

i

